     Department of Homeland Security

     2IÀFHRI,QVSHFWRU*HQHUDO


    Information Technology Management Letter for 

   the FY 2013 Department of Homeland Security’s 

 Financial Statement Audit – National Protection and 

                 Programs Directorate





OIG-14-98                                     May 2014

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                      May28,2014


MEMORANDUMFOR:            DavidEpperson
                             ChiefInformationOfficer

                             NicoleWindham
                             Director,BudgetandFinancialAdministration

FROM:                       RichardHarsche
                             ActingAssistantInspectorGeneral
                             OfficeofInformationTechnologyAudits

SUBJECT:	                   InformationTechnologyManagementLetterfortheFY
                             2013DepartmentofHomelandSecurity’sFinancial
                             StatementAudit–NationalProtectionandPrograms
                             Directorate

Attachedforyourinformationisourfinalreport,InformationTechnologyManagement
LetterfortheFY2013DepartmentofHomelandSecurity’sFinancialStatementAudit–
NationalProtectionandProgramsDirectorate.Thisreportcontainscommentsand
recommendationsrelatedtoinformationtechnologyinternalcontroldeficienciesthat
werenotrequiredtobereportedintheIndependentAuditors’Report.

WecontractedwiththeindependentpublicaccountingfirmKPMGLLP(KPMG)to
conducttheauditofDepartmentofHomelandSecurityfiscalyear2013consolidated
financialstatements.ThecontractrequiredthatKPMGperformitsauditaccordingto
generallyacceptedgovernmentauditingstandardsandguidancefromtheOfficeof
ManagementandBudgetandtheGovernmentAccountabilityOffice.KPMGis
responsiblefortheattachedmanagementletterdatedMarch11,2014,andthe
conclusionexpressedinit.

Pleasecallmewithanyquestions,oryourstaffmaycontactSharonHuiswoud,Director,
InformationSystemsAuditDivision,at(202)254Ͳ5451.

Attachment

	                           
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




March 11, 2014


Office of Inspector General, 

Chief Information Officer and Chief Financial Officer,

U.S. Department of Homeland Security

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards
generally accepted in the United States of America and Government Auditing Standards, we considered
internal control over financial reporting (internal control) as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the financial statements. In conjunction with
our audit of the financial statements, we also performed an audit of internal control over financial
reporting in accordance with attestation standards issued by the American Institute of Certified Public
Accountants.

In accordance with Government Auditing Standards, our Independent Auditors’ Report, dated
December 11, 2013, included internal control deficiencies identified during our audit that, in aggregate,
represented a material weakness in information technology (IT) controls and financial system
functionality at the DHS Department-wide level. This letter represents the separate limited distribution
report mentioned in that report, of matters related to the Office of Financial Management (OFM) and
the Office of the Chief Information Officer (OCIO).

During our audit we noted certain matters involving internal control and other operational matters that
are presented for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management and communicated through Notices of
Findings and Recommendations (NFRs), are intended to improve internal control or result in other
operating efficiencies and are summarized as described below.

With respect to OFM’s and OCIO’s financial systems’ IT controls, we noted certain matters in the
areas of security management, access controls, and contingency planning. These matters are described
in the General IT Control Findings and Recommendations section of this letter.

During our audit we noted certain matters involving financial reporting internal controls (comments not
related to IT) and other operational matters, including certain deficiencies in internal control that we
consider to be significant deficiencies and material weaknesses, and communicated them in writing to
management and those charged with governance in our Independent Auditors’ Report and in a separate
letter to the Office of Inspector General and the DHS Chief Financial Officer.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to
light all deficiencies in policies or procedures that may exist. We aim, however, to use our knowledge
of DHS’ organization gained during our work to make comments and suggestions that we hope will be
useful to you.

We would be pleased to discuss these comments and recommendations with you at any time.

The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any
other purpose.

Very truly yours,
                               Department of Homeland Security
                          Information Technology Management Letter 

                         National Protection and Programs Directorate 

                                      September 30, 2013


                                  TABLE OF CONTENTS

                                                                          Page
Objective, Scope, and Approach                                             2
General IT Control Findings and Recommendations                            2
FY 2013 IT Notices of Findings and Recommendations at NPPD                 3




                                              1

                                    Department of Homeland Security
                               Information Technology Management Letter 

                              National Protection and Programs Directorate 

                                           September 30, 2013


                              OBJECTIVE, SCOPE, AND APPROACH

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”). In connection with our audit of the FY 2013 financial statements, we performed an
evaluation of selected general information technology (IT) controls (GITCs) at the National Protection
and Programs Directorate (NPPD) to assist in planning and performing our audit engagement.
Specifically, limited after-hours physical security testing and social engineering at select NPPD facilities
was conducted to identify potential control deficiencies in non-technical aspects of IT security.

               GENERAL IT CONTROL FINDINGS AND RECOMMENDATIONS

Summary

During FY 2013, we continued to identify GITC weaknesses that could potentially impact NPPD’s
financial data related to controls over security management.

Collectively, the IT control weaknesses limited NPPD’s ability to ensure that critical financial and
operational data were maintained in such a manner to ensure confidentiality, integrity, and availability. In
addition, these weaknesses negatively impacted the internal controls over NPPD’s financial reporting and
its operations.

The two IT Notices of Findings and Recommendation (NFRs) issued during our FY 2013 testing were
repeat findings from the prior year and represent weaknesses in the category of security management as
defined by the Federal Information System Controls Audit Manual, issued by the U.S. Government
Accountability Office, which formed the basis of our GITC evaluation procedures.

These weaknesses may increase the risk that the confidentiality, integrity, and availability of system
controls and NPPD’s financial data could be exploited, thereby compromising the integrity of NPPD
financial data used by management and reported in NPPD’s and DHS’ financial statements.

While the recommendations made by us should be considered by NPPD, it is the ultimate responsibility
of NPPD management to determine the most appropriate method(s) for addressing the weaknesses
identified.

Findings

During our audit of the FY 2013 DHS financial statements, we identified the following NPPD GITC
control deficiencies.

After-Hours Physical Security Testing

On August 20, 2013, we performed after-hours physical security testing to identify risks related to non-
technical aspects of IT security. These non-technical IT security aspects included physical access to
printed or electronic media, equipment, or credentials residing within an NPPD employee’s or
contractor’s work area or shared workspaces which could be used by others to gain unauthorized access to

                                                     2

                                   Department of Homeland Security
                              Information Technology Management Letter 

                             National Protection and Programs Directorate 

                                          September 30, 2013


systems housing financial or other sensitive information. The testing was performed at an NPPD facility
in Arlington, Virginia, that processes, maintains, and has access to financial data.

At this location, we observed 14 instances where unsecured or unlocked laptops and printed materials
marked “For Official Use Only” or containing sensitive personally identifiable information were
accessible by individuals without a “need to know”.

Social Engineering

Social engineering is defined as the act of attempting to manipulate or deceive individuals into taking
action that is inconsistent with DHS policies, such as divulging sensitive information or
allowing/enabling computer system access. The term typically applies to trickery or deception for the
purpose of information gathering, or gaining computer system access.

On July 22, 2013, we performed social engineering testing from a DHS facility to identify risks related to
NPPD personnel awareness of responsibilities for protecting sensitive IT information, including personal
system access credentials, from disclosure to unauthorized personnel. We noted four instances where
individuals divulged their FFMS application account password to KPMG auditors.

Recommendation

We recommend that the NPPD Office of the Chief Information Officer (OCIO) and Office of the Chief
Financial Officer (OCFO), in coordination with the DHS OCIO and the DHS OCFO, develop a stronger
compliance process to ensure employees are complying with information, physical, and privacy security
policies.

          FY 2013 IT NOTICES OF FINDINGS AND RECOMMENDATIONS AT NPPD

FY 2013 NFR #                       NFR Title                          FISCAM Control       New     Repeat
                                                                            Area            Issue    Issue
NPPD-IT-13-01    Security Awareness Issues Identified During          Security Management             X
                 Social Engineering Testing at NPPD
NPPD-IT-13-02    Security Awareness Issues Identified during After-   Security Management             X
                 Hours Physical Security Testing at NPPD




                                                      3

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
